     Department of Homeland Security

     ��������������������������


 Information Technology Management Letter for the
Federal Emergency Management Agency Component
  of the FY 2013 Department of Homeland Security
              Financial Statement Audit




OIG-14-76                                April 2014

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


 
                                      April 24, 2014 
 
 
MEMORANDUM FOR:              Adrian Gardner 
                             Chief Information Officer 
                             Federal Emergency Management Agency 
 
                             Edward Johnson 
                             Chief Financial Officer 
                             Federal Emergency Management Agency 
 
FROM:                        Richard Harsche 
                             Acting Assistant Inspector General 
                             Office of Information Technology Audits 
 
SUBJECT:                     Information Technology Management Letter for the 
                             Federal Emergency Management Agency Component of 
                             the FY 2013 Department of Homeland Security Financial 
                             Statement Audit 
 
Attached for your information is our final report, Information Technology Management 
Letter for the Federal Emergency Management Agency Component of the FY 2013 
Department of Homeland Security Financial Statement Audit. This report contains 
comments and recommendations related to information technology internal control 
deficiencies that were not required to be reported in the Independent Auditors’ Report.  
 
We contracted with the independent public accounting firm KPMG LLP (KPMG) to 
conduct the audit of Department of Homeland Security fiscal year 2013 consolidated 
financial statements. The contract required that KPMG perform its audit according to 
generally accepted government auditing standards and guidance from the Office of 
Management and Budget and the Government Accountability Office. KPMG is 
responsible for the attached management letter dated March 11, 2014, and the 
conclusion expressed in it. 
 
Please call me with any questions, or your staff may contact Sharon Huiswoud, Director, 
Information Systems Audit Division, at (202) 254‐5451. 
 
Attachment 
 
 


 
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




March 11, 2014

Office of Inspector General,
U.S. Department of Homeland Security, and

Chief Information Officer and Chief Financial Officer,

U.S. Department of Homeland Security Federal Emergency Management Agency

Ladies and Gentlemen:

We have audited the financial statements of the U.S. Department of Homeland Security (DHS or
Department) for the year ended September 30, 2013 (referred to herein as the “fiscal year (FY) 2013
financial statements”), and have issued our report thereon dated December 11, 2013. In planning and
performing our audit of the financial statements of DHS, in accordance with auditing standards generally
accepted in the United States of America and Government Auditing Standards, we considered internal
control over financial reporting (internal control) as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the financial statements. In conjunction with our audit of the
financial statements, we also performed an audit of internal control over financial reporting in accordance
with attestation standards issued by the American Institute of Certified Public Accountants.

In accordance with Government Auditing Standards, our Independent Auditors’ Report, dated December
11, 2013, included internal control deficiencies identified during our audit that, in aggregate, represented a
material weakness in information technology (IT) controls and financial system functionality at the DHS
Department-wide level. This letter represents the separate limited distribution report mentioned in that
report, of matters related to the Federal Emergency Management Agency (FEMA).

During our audit we noted certain matters involving internal control and other operational matters that are
presented for your consideration. These comments and recommendations, all of which have been discussed
with the appropriate members of management and communicated through Notices of Findings and
Recommendations (NFRs), are intended to improve internal control or result in other operating efficiencies
and are summarized as described below.

With respect to FEMA’s financial systems’ IT controls, we noted certain matters in the areas of security
management, access controls, configuration management, segregation of duties, and contingency planning.
These matters are described in the General IT Control Findings and Recommendations section of this
letter.

The Table of Contents identifies each section of the letter. We have provided a description of key FEMA
financial systems and IT infrastructure within the scope of the FY 2013 DHS financial statement audit in
Appendix A, and a listing of each IT NFR communicated to management during our audit in Appendix B.

During our audit we noted certain matters involving financial reporting internal controls (comments not
related to IT) and other operational matters, including certain deficiencies in internal control that we
consider to be significant deficiencies and material weaknesses, and communicated them in writing to
management and those charged with governance in our Independent Auditors’ Report and in a separate
letter to the Office of Inspector General and the DHS Chief Financial Officer.



                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Our audit procedures are designed primarily to enable us to form an opinion on the financial statements
and on the effectiveness of internal control over financial reporting, and therefore may not bring to light all
deficiencies in policies or procedures that may exist. We aim, however, to use our knowledge of DHS’
organization gained during our work to make comments and suggestions that we hope will be useful to
you.

We would be pleased to discuss these comments and recommendations with you at any time.

The purpose of this letter is solely to describe comments and recommendations intended to improve
internal control or result in other operating efficiencies. Accordingly, this letter is not suitable for any other
purpose.

Very truly yours,
                                    Department of Homeland Security
                               Information Technology Management Letter 

                                 Federal Emergency Management Agency

                                          September 30, 2013


                                       TABLE OF CONTENTS

                                                                                        Page
Objective, Scope, and Approach                                                           2

Summary of Findings                                                                      4

General IT Control Findings and Recommendations                                          6

   Findings                                                                              6

       Security Management                                                               6

       Access Controls                                                                   6

       Configuration Management                                                          7

       Segregation of Duties                                                             7

       Contingency Planning                                                              7

   Recommendations                                                                       8

       Security Management                                                               8

       Access Controls                                                                   8

       Configuration Management                                                          9

       Segregation of Duties                                                             9

       Contingency Planning                                                              9

IT Application Controls                                                                  10


                                            APPENDICES

Appendix                                        Subject                                 Page
           Description of Key FEMA Financial Systems and IT Infrastructure within the    11
   A
           Scope of the FY 2013 DHS Financial Statement Audit 

   B       FY 2013 IT Notices of Findings and Recommendations at FEMA                    15





                                                  1

                                    Department of Homeland Security
                               Information Technology Management Letter 

                                 Federal Emergency Management Agency

                                          September 30, 2013


                              OBJECTIVE, SCOPE, AND APPROACH


Objective

We have audited the financial statements of the U.S. Department of Homeland Security (DHS or
Department) for the year ended September 30, 2013 (referred to herein as the “fiscal year (FY) 2013
financial statements”). In connection with our audit of the FY 2013 financial statements, we performed an
evaluation of selected general information technology (IT) controls (GITCs) and IT application controls
at FEMA to assist in planning and performing our audit engagement.

Scope

The scope of our GITC and IT application control test work is described in Appendix A, which provides a
description of the key FEMA financial systems and IT infrastructure within the scope of the FEMA
component of the FY 2013 DHS consolidated financial statement audit.

Approach

General Information Technology Controls

The Federal Information System Controls Audit Manual (FISCAM), issued by the U.S. Government
Accountability Office, formed the basis of our GITC evaluation procedures.

FISCAM was designed to inform financial statement auditors about IT controls and related audit concerns
to assist them in planning their audit work and to integrate the work of auditors with other aspects of the
financial statement audit. FISCAM also provides guidance to auditors when considering the scope and
extent of review that generally should be performed when evaluating GITCs and the IT environment of a
Federal agency. FISCAM defines the following five control categories to be essential to the effective
operation of GITCs and the IT environment:

	 Security Management – Controls that provide a framework and continuing cycle of activity for
   managing risk, developing security policies, assigning responsibilities, and monitoring the adequacy
   of computer-related security controls.

   	 In conjunction with our test work of security management GITCs, limited after-hours physical
      security testing at select FEMA facilities was conducted to identify potential control deficiencies
      in non-technical aspects of IT security.

	 Access Control – Controls that limit or detect access to computer resources (data, programs,
   equipment, and facilities) and protect against unauthorized modification, loss, and disclosure.

	 Configuration Management – Controls that help to prevent unauthorized changes to information
   system resources (software programs and hardware configurations) and provide reasonable assurance
   that systems are configured and operating securely and as intended.



                                                    2

                                    Department of Homeland Security
                               Information Technology Management Letter 

                                 Federal Emergency Management Agency

                                          September 30, 2013


   	 We performed technical information security testing for key FEMA network and system devices.
      The technical security testing was performed from within select DHS facilities and focused on
      production devices that directly support DHS’ and FEMA’s financial processing and key general
      support systems.

	 Segregation of Duties – Controls that constitute policies, procedures, and an organizational structure
   to manage who can control key aspects of computer-related operations.

	 Contingency Planning – Controls that involve procedures for continuing critical operations without
   interruption, or with prompt resumption, when unexpected events occur.

IT Application Controls

We performed testing over selected key IT application controls on financial systems and applications to
assess the financial systems’ internal controls over the input, processing, and output of financial data and
transactions. FISCAM defines application controls as the structure, policies, and procedures that apply to
separate, individual application systems, such as accounts payable, inventory, or payroll.




                                                     3

                                    Department of Homeland Security
                               Information Technology Management Letter 

                                 Federal Emergency Management Agency

                                          September 30, 2013


                                      SUMMARY OF FINDINGS

During FY 2013, FEMA took corrective action to address certain prior year IT control deficiencies. For
example, FEMA made improvements over designing and implementing certain configuration
management and security authorization controls over FEMA information systems, as well as
strengthening and improving controls around vulnerability management and logical access controls.
However, during FY 2013, we continued to identify GITC deficiencies related to controls over security
management (including deficiencies over physical security and security awareness), access control,
configuration management, segregation of duties, and contingency planning for FEMA core financial and
feeder systems and associated General Support System environments.

Collectively, the IT control deficiencies limited FEMA’s ability to ensure that critical financial and
operational data were maintained in such a manner to ensure confidentiality, integrity, and availability. In
addition, these deficiencies negatively impacted FEMA’s internal controls over financial reporting and its
operations. We consider these deficiencies, in aggregate, to contribute to the IT material weakness at the
Department level under standards established by the American Institute of Certified Public Accountants.
In addition, based upon the results of our test work, we noted that FEMA contributes to the Department’s
non-compliance with the relevant federal financial management systems requirements of the Federal
Financial Management Improvement Act of 1996.

Of the 28 IT Notices of Findings and Recommendations (NFRs) issued during our FY 2013 testing, 26
were repeat findings, either partially or in whole from the prior year, and 2 were new findings. The 28 IT
NFRs issued represent deficiencies in all five FISCAM GITC categories.

The majority of findings resulted from the lack of properly documented, fully designed and implemented,
adequately detailed, and consistently implemented financial system controls to comply with DHS
Sensitive Systems Policy Directive 4300A, Information Technology Security Program, requirements and
National Institute of Standards and Technology (NIST) guidance. Specifically, the findings stem from:

    1.	 Improper or incomplete security authorization activities and supporting artifacts and 

        documentation; 

    2.	 Insufficient logging of system events and monitoring of audit logs;
    3.	 Inadequately designed and ineffective access control policies and procedures relating to the
        management of logical access to financial applications, databases, and support systems;
    4.	 Patch, configuration, and vulnerability management control deficiencies within systems;
    5.	 Inadequately designed and ineffective configuration management policies and procedures; and
    6.	 The lack of alternate processing capabilities.

These deficiencies may increase the risk that the confidentiality, integrity, and availability of system
controls and FEMA financial data could be exploited, thereby compromising the integrity of FEMA
financial data used by management and reported in FEMA’s and DHS’ financial statements.




                                                     4

                                  Department of Homeland Security
                             Information Technology Management Letter 

                               Federal Emergency Management Agency

                                        September 30, 2013


While the recommendations made by us should be considered by FEMA, it is the ultimate responsibility
of FEMA management to determine the most appropriate method(s) for addressing the deficiencies
identified.




                                                 5

                                    Department of Homeland Security
                               Information Technology Management Letter 

                                 Federal Emergency Management Agency

                                          September 30, 2013


               GENERAL IT CONTROL FINDINGS AND RECOMMENDATIONS


Findings

During our audit of the FY 2013 DHS financial statements, we identified the following FEMA GITC and
IT entity-level control deficiencies that, in the aggregate, contribute to the IT material weakness at the
Department level. Those FEMA GITC deficiencies that we determined to be “more significant” in posing
a risk to the integrity of FEMA financial data are identified in Appendix B.

Security Management

	 Individuals with significant information security oversight and management responsibilities subject to
   role-based training were not fully identified by management, and compliance with specialized training
   requirements was not consistently tracked.

	 Security authorization activities and supporting documentation and artifacts for the Integrated
   Financial Management Information System (IFMIS), Non-Disaster Grants (NDGrants), and
   Emergency Support (ES) – including Authorization to Operate (ATO) memoranda, risk assessments,
   privacy threshold analyses, security plans, IT contingency plans (CPs) and associated plan test results,
   security control assessments, Security Assessment Reports, and corresponding Plans of Action and
   Milestones – were not completed in accordance with DHS and NIST requirements.

After-Hours Physical Security Testing

On July 2 and July 11, 2013, we performed after-hours physical security testing to identify risks related to
non-technical aspects of IT security. These non-technical IT security aspects included physical access to
printed or electronic media, equipment, or credentials residing within a FEMA employee’s or contractor’s
work area or shared workspaces which could be used by others to gain unauthorized access to systems
housing financial or other sensitive information. The testing was performed at various FEMA locations in
the Washington, DC, metropolitan area that process, maintain, and/or have access to financial data.

We observed 78 instances where passwords, sensitive IT information (such as server names or IP
addresses), unsecured or unlocked laptops and external media, and printed materials marked “For Official
Use Only” or containing sensitive Personally Identifiable Information were accessible by individuals
without a “need to know”.

Access Controls

	 Audit logs for components of the IFMIS environment (including the application, operating system,
   and IFMIS and Payment and Reporting System (PARS) databases) were not consistently reviewed by
   management in accordance with DHS policy (including the issue that audit records were not
   generated to demonstrate evidence of review on dates without relevant security activities), and IFMIS
   audit logging policies and procedures were outdated.




                                                     6

                                   Department of Homeland Security
                              Information Technology Management Letter 

                                Federal Emergency Management Agency

                                         September 30, 2013


	 Controls to generate, and perform and document independent reviews of, required audit records of
   events on NDGrants, Emergency Management Mission Integrated Environment (EMMIE), and ES
   were not implemented.

	 Strong password requirements were not enforced on the NDGrants, EMMIE, and ES databases, and
   documentation supporting exceptions to DHS password requirements was incomplete.

	 Procedures for managing access to the NDGrants, EMMIE, and ES applications did not adequately
   identify elevated privileges within the systems or controls to review and authorize access to such
   privileges.

	 Account management activities on FEMA financial applications (IFMIS, NDGrants, EMMIE, and
   ES) and supporting databases, including authorization of new and modified access, were not
   consistently or timely documented or implemented in accordance with DHS and FEMA policy.

Configuration Management

	 Password, security patch management, and configuration deficiencies were identified during the
   vulnerability assessment on hosts supporting IFMIS, NDGrants, EMMIE, the National Flood
   Insurance Program (NFIP) Local Area Network (LAN), and financially significant segments of the
   FEMA Enterprise Network (FEN) and end-user computing environment.

	 Controls to validate the completeness and integrity of changes to the IFMIS, NDGrants, EMMIE, and
   ES production environments were not implemented.

	 Configuration management policies, procedures, and processes for documenting and implementing
   configuration changes to FEN network devices were not finalized and approved for a majority of the
   year, or fully implemented.

	 Documentation supporting the approval and testing of configuration changes to the IFMIS
   environment was not consistently maintained.

Segregation of Duties

	 FEMA personnel with financial reporting, management, and oversight roles were granted IFMIS
   application access that was excessive and/or not consistent with the principles of least privilege and
   segregation of duties, and existing system documentation did not adequately define the
   implementation of certain access groups and associated privileges granted to these personnel.

Contingency Planning

	 Alternate processing sites for NDGrants, EMMIE, and ES were not established; consequently, testing
   of those systems’ CPs, including restoration to an established alternate processing site, was not
   performed.



                                                   7

                                    Department of Homeland Security
                               Information Technology Management Letter 

                                 Federal Emergency Management Agency

                                          September 30, 2013


Recommendations

We recommend that the FEMA Office of the Chief Information Officer (OCIO) and Office of the Chief
Financial Officer (OCFO), in coordination with the DHS OCIO and the DHS OCFO, make the following
improvements to FEMA‘s financial management systems and associated IT security program.

Security Management

	 Develop and implement monitoring controls over background investigation processes to ensure that
   investigations for all types of Federal employees and contractors are consistently performed and
   centrally tracked in accordance with DHS policy.

	 Enhance existing policies and procedures related to initial and periodic specialized training for
   individuals with significant information security responsibilities and implement additional monitoring
   controls to ensure that all individuals possessing specific roles and positions associated with
   significant information security responsibilities are identified and compliance with training
   requirements is tracked.

	 Document or update all required security authorization artifacts for IFMIS, NDGrants, and ES in
   accordance with DHS policy and NIST guidance, and revise and implement appropriate monitoring
   controls to ensure continued compliance with applicable criteria related to security authorization
   activities and supporting documentation.

	 Continue existing efforts to formally document and implement controls and relevant policies and
   procedures, including conducting periodic checks of FEMA workspaces and enforcing employee
   sanctions as appropriate, to ensure that sensitive DHS and FEMA data are secured properly in
   accordance with DHS requirements.

Access Controls

	 Develop and implement monitoring controls over the audit log review process on the IFMIS
   application, operating system, and the IFMIS and PARS database logs to ensure that audit logs are
   reviewed by management on a periodic basis and are documented, and audit log review evidence is
   maintained in accordance with FEMA and DHS requirements.

	 Configure audit logs for the NDGrants, EMMIE, and ES databases and applications to ensure that
   auditable events are recorded at an appropriate level of detail to attribute activity to individual users,
   retained, and appropriately reviewed by independent security management personnel.

	 Implement technical controls to ensure that passwords for NDGrants, EMMIE, and ES databases
   accounts are configured in accordance with FEMA and DHS requirements. If necessary and justified
   by operational and business requirements, ensure that requests for exceptions from DHS password
   requirements clearly document all affected user and service accounts subject to deviations from
   standard controls.



                                                     8

                                  Department of Homeland Security
                             Information Technology Management Letter 

                               Federal Emergency Management Agency

                                        September 30, 2013


	 Review and revise existing system documentation and procedures to identify elevated privileges
   within the NDGrants, EMMIE, and ES applications and controls to review and authorize access to
   such privileges.

	 Develop and implement monitoring controls over the account management process to ensure that all
   users are granted access to FEMA system(s) in accordance with FEMA and DHS requirements.

Configuration Management

	 Implement the specific vendor-recommended corrective actions detailed in the NFRs that were issued
   for deficiencies identified during our vulnerability assessments.

	 Implement formal technical and management controls to systematically track and review
   modifications to the IFMIS, NDGrants, EMMIE, and ES production environments to ensure the
   completeness and integrity of change reports and logs.

	 Fully implement configuration management policies and procedures to ensure that configuration
   changes to FEN network devices are consistently documented and authorized by FEMA management
   in accordance with DHS policy and the FEN configuration management plan.

	 Develop and implement monitoring controls over the IFMIS configuration management process to
   ensure that changes deployed to the IFMIS production environment are properly approved and tested,
   and sufficient evidence is retained.

Segregation of Duties

	 Document and implement controls to manage the assignment of groups and corresponding roles and
   functionality within the IFMIS application by identifying conflicting roles, revising system
   documentation as appropriate, and analyzing and modifying existing assignments to address
   violations of segregation of duties and least privilege principles.

Contingency Planning

	 Dedicate resources to complete actions associated with the migration of FEMA systems to the DHS
   Enterprise Data Center; formally establish and implement controls around alternate processing
   capabilities for NDGrants, EMMIE, and ES; and conduct and document the results of tests of those
   systems’ CPs, including simulated recovery from contingency events at the designated alternate
   processing site(s).




                                                 9

                                  Department of Homeland Security
                             Information Technology Management Letter 

                               Federal Emergency Management Agency

                                        September 30, 2013


                                  IT APPLICATION CONTROLS

We concluded that application controls over IFMIS, NDGrants, EMMIE, ES, and PARS could not be
relied upon for purposes of our FY 2013 audit procedures because of the nature of the GITC deficiencies
identified and discussed above. As a result, we did not test application controls for these financial
systems.

However, during the FEMA component of the FY 2013 DHS financial statement audit we did conduct
testing over certain application controls on key financial systems supporting NFIP and did not identify
any control deficiencies.




                                                  10

                       Department of Homeland Security
                  Information Technology Management Letter 

                    Federal Emergency Management Agency

                             September 30, 2013




                             Appendix A 

Description of Key FEMA Financial Systems and IT Infrastructure 

 within the Scope of the FY 2013 DHS Financial Statement Audit 





                                     11

                                                                                                Appendix A

                                    Department of Homeland Security
                               Information Technology Management Letter
                                 Federal Emergency Management Agency
                                          September 30, 2013


Below is a description of significant FEMA financial management systems and supporting IT
infrastructure included in the scope of the FEMA component of the DHS FY 2013 financial statement
audit.

Integrated Financial Management Information System (IFMIS)

IFMIS is the official accounting system of FEMA and maintains all financial data for internal and
external reporting. IFMIS is comprised of five subsystems: Funding, Cost Posting, Disbursements,
Accounts Receivable, and General Ledger. The application is a Commercial Off-The-Shelf software
package developed and maintained by Digital Systems Group Incorporated. IFMIS interfaces with PARS,
ES, ProTrac, Smartlink (Department of Health and Human Services [HHS]), Treasury Information
Executive Repository (Department of the Treasury), Secure Payment System (Department of the
Treasury), Grants Management System (Department of Justice), United States Coast Guard Credit Card
System, Credit Card Transaction Management System (CCTMS), Assistance to Firefighters Grants,
eGrants, and Enterprise Data Warehouse and Payroll (Department of Agriculture – National Finance
Center). The IFMIS production environment is located in Virginia (VA).

Payment and Reporting System (PARS)

PARS is a standalone web-based application. The PARS database resides on the IFMIS UNIX server and
is incorporated within the certification and accreditation boundary for that system. Through its web
interface, PARS collects Standard Form 425 information from grantees and stores the information in its
Oracle 9i database. Automated scheduled jobs are run daily to update and interface grant and obligation
information between PARS and IFMIS. PARS is located in VA.

Non-Disaster Grant Management System (NDGrants)

NDGrants is a web-based system that supports the grants management lifecycle and is used by external
stakeholders and grantees, via a public Web site, to apply for grants and monitor the progress of grant
applications and payments and view related reports, and by the FEMA Grants Program Directorate,
Program Support Division, via an internal Web site, for reviewing, approving, and processing grant
awards. NDGrants interfaces with two other systems: FEMA’s internal Integrated Security and Access
Control System (ISAAC), a component of the Network Access Control System used for user
credentialing and role-based access; and the HHS Grants.gov system, used for publishing grant
solicitations and downloading applications. NDGrants is located in VA.

Emergency Management Mission Integrated Environment (EMMIE)

EMMIE is an internal Web-based grants management solution used by FEMA program offices and user
communities directly involved in the grant lifecycle associated with the Public Assistance Grant Program
and the Fire Management Assistance Grant Program. It is also designed to interface with other
government entities and grant and sub-grant applicants (e.g., states and localities). EMMIE provides
functionality for public entities and private-non-profit entities to create and submit grant applications and
for FEMA users to review and award applications, generate and review relevant mission critical reports,


                                                     12

                                                                                            Appendix A

                                   Department of Homeland Security
                              Information Technology Management Letter
                                Federal Emergency Management Agency
                                         September 30, 2013


process amendments, and conduct close-out activities. Interfaces exist between the EMMIE system,
IFMIS, and ISAAC. EMMIE is located in VA.

Emergency Support (ES)

ES is an internal FEMA application for pre-processing disaster-related financial transactions, including
allocation, commitment, obligation, mission assignment, and payment requests from other internal and
external systems. ES serves as the primary interface to IFMIS. It also allows FEMA users to process
disaster housing payments, perform payment recoupment, and conduct other administrative tasks. In
addition to IFMIS, ES has interfaces to several other FEMA systems, including:

    	 ISAAC (organizational and personnel data and team setup);
    	 Emergency Coordination (incident and disaster declarations);
    	 Enterprise Coordination and Approvals Processing System (commitment and mission assignment
       [obligation] requests);
    	 Hazard Mitigation Grants Program (allocation and obligation requests);
    	 Individual Assistance (payment and recoupment requests);
    	 Public Assistance (obligation and allocation requests);
    	 Automated Deployment Database (personnel data);
    	 Assistance to Firefighters Grants (obligation, invoice, and vendor requests);
    	 EMMIE (obligation requests);
    	 Mitigation Electronic Grants Management System (obligation requests); and
    	 CCTMS (expenditure requests).

ES is located in VA.

Traverse

Traverse is the general ledger application currently used by the NFIP Bureau and Statistical Agent to
generate the NFIP financial statements. Traverse is a client-server application that runs on the NFIP LAN
Windows server environment located in Maryland. The Traverse client is installed on the desktop
computers of the NFIP Bureau of Financial Statistical Control group members and interfaces with a
Microsoft Structured Query Language database hosted on an internal segment of the NFIP LAN. Traverse
has no known external system interfaces.

Transaction Recording and Reporting Processing (TRRP)

The TRRP application acts as a central repository of all data submitted by the Write Your Own (WYO)
companies and the Direct Servicing Agent (DSA) for the NFIP. TRRP also supports the WYO program,


                                                   13

                                                                                           Appendix A

                                  Department of Homeland Security
                             Information Technology Management Letter
                               Federal Emergency Management Agency
                                        September 30, 2013


primarily by ensuring the quality of financial data submitted by the WYO companies and DSA to TRRP.
TRRP is a mainframe-based application that runs on the NFIP mainframe logical partition in Connecticut.
TRRP has no known system interfaces.




                                                  14

                     Department of Homeland Security
                Information Technology Management Letter 

                  Federal Emergency Management Agency

                           September 30, 2013




                           Appendix B 

FY 2013 IT Notices of Findings and Recommendations at FEMA





                                   15

                                                                                                                                                 Appendix B

                                                            Department of Homeland Security
                                                       Information Technology Management Letter
                                                         Federal Emergency Management Agency
                                                                  September 30, 2013


    FY 2013 NFR #                                 NFR Title                                    FISCAM Control Area          New       Repeat        More
                                                                                                                            Issue      Issue     Significant1
    FEMA-IT-13-01    Non-Compliance with Alternate Processing Site Requirements for Key         Contingency Planning                     X            X
                     Financial Systems
    FEMA-IT-13-02    Insufficient Audit Log Controls for Key Financial Systems                     Access Controls                       X            X
    FEMA-IT-13-03    Inconsistent Implementation of DHS Background Investigation                Security Management                     X
                     Requirements for FEMA Federal Employees and Contractors
    FEMA-IT-13-04    Incomplete Implementation of Role-Based Training for Individuals           Security Management                     X
                     with Significant Information Security Responsibilities
    FEMA-IT-13-05    Non-Compliant Security Authorization Package for NDGrants                  Security Management                      X
    FEMA-IT-13-06    Non-Compliance with DHS and FEMA Password Requirements for                    Access Controls                      X
                     Oracle Databases Supporting Certain Financial Applications
    FEMA-IT-13-07    Incomplete Exception Request for Password Controls on Oracle               Security Management2
                     Databases Supporting Certain Financial Applications
    FEMA-IT-13-08    Security Awareness Issues Identified during After-Hours Physical           Security Management                     X
                     Security Testing at FEMA                                                                                  X
    FEMA-IT-13-09    Weaknesses Identified during the Vulnerability Assessment on IFMIS          Access Controls;                        X            X
                                                                                             Configuration Management
    FEMA-IT-13-10    Weaknesses Identified during the Vulnerability Assessment on the            Access Controls;                        X            X
                     NFIP LAN                                                                Configuration Management

1
 NFRs designated as “More Significant” represent control deficiencies that we determined to pose an increased risk to the integrity of FEMA financial data.
2
 NFR FEMA-IT-13-07 was reported in conjunction with FEMA-IT-13-06 as part of GITC deficiencies related to access controls in our Independent Auditors’
Report dated December 11, 2013.




                                                                             16

                                                                                                                                 Appendix B

                                                      Department of Homeland Security
                                                 Information Technology Management Letter
                                                   Federal Emergency Management Agency
                                                            September 30, 2013


FY 2013 NFR #                                NFR Title                                FISCAM Control Area       New     Repeat      More
                                                                                                                Issue    Issue   Significant1
FEMA-IT-13-11   Weaknesses Identified during the Vulnerability Assessment on         Configuration Management             X           X
                Financially Significant Segments of the FEMA Enterprise Network
                and End-User Computing Environment
FEMA-IT-13-12   Weaknesses Identified during the Vulnerability Assessment on         Configuration Management             X
                EMMIE
FEMA-IT-13-13   Weaknesses Identified during the Vulnerability Assessment on             Access Controls;                 X           X
                NDGrants                                                             Configuration Management
FEMA-IT-13-14   Non-Compliant Security Authorization Package for ES                    Security Management                X
FEMA-IT-13-15   Lack of Controls to Validate Completeness and Integrity of Changes   Configuration Management             X           X
                Deployed to Production for EMMIE, NDGrants, and ES
FEMA-IT-13-16   Incomplete Account Management Documentation for the EMMIE                Access Controls         X                    X
                Application
FEMA-IT-13-17   Incomplete Account Management Documentation for NDGrants                 Access Controls                  X           X
FEMA-IT-13-18   Incomplete Account Management Documentation for ES                       Access Controls                  X           X
FEMA-IT-13-19   Excessive or Inappropriate Access to IFMIS                               Access Controls;                             X
                                                                                       Segregation of Duties
FEMA-IT-13-20   Lack of EMMIE System Owner Approval for Database Accounts                Access Controls                  X           X
                                                                                                                  X
FEMA-IT-13-21   Lack of ES System Owner Approval for Database Accounts                   Access Controls                  X
FEMA-IT-13-22   Lack of NDGrants System Owner Approval for Database Accounts             Access Controls                  X           X
FEMA-IT-13-23   Inconsistent Authorization of New and Modified IFMIS Application         Access Controls                  X           X
                User Access
FEMA-IT-13-24   Lack of Adequate Configuration Management over Network Devices       Configuration Management             X
                Supporting Financial Systems

                                                                       17

                                                                                                                                 Appendix B

                                                      Department of Homeland Security
                                                 Information Technology Management Letter
                                                   Federal Emergency Management Agency
                                                            September 30, 2013


FY 2013 NFR #                                NFR Title                                FISCAM Control Area       New     Repeat      More
                                                                                                                Issue    Issue   Significant1
FEMA-IT-13-25   Inconsistent Activities and Incomplete Documentation Supporting      Configuration Management             X           X
                Configuration Changes for the IFMIS Application
FEMA-IT-13-26   Inconsistent Review of IFMIS Audit Logs                                  Access Controls                  X           X
FEMA-IT-13-27   Lack of Controls to Validate Completeness and Integrity of Changes   Configuration Management             X           X
                Deployed to Production for the IFMIS Production Environment
FEMA-IT-13-28   Non-Compliant Security Authorization Package for IFMIS                 Security Management       X




                                                                       18

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security



   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Under Secretary for Management
   Chief Financial Officer
   Chief Information Officer
   Chief Information Security Officer
   Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                                            OIG-14-76
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
